V-

VIRGINIA:
Jn the Supreme Cowd of Virginia held at the Supreme Count ^Building in the
City of, Slichmond on Jhundday the 28th day. of SeBnuany, 2019.
Gregory Richardson, No. 1072973,
against

Petitioner,

Record No. 180182

Superintendent of Piedmont Regional Jail,

Respondent.

Upon a Petition for a Writ of Habeas Corpus
Upon Consideration of the petition for a writ of habeas corpus filed
February 2, 2018, the rule to show cause, the respondent’s motion to dismiss, and petitioner’s
reply, the Court is of the opinion that the motion should be granted and the writ should not issue.
Petitioner, a sexually violent predator, was civilly committed by the Circuit Court
of the City of Richmond for an indefinite period in April 2010. Petitioner filed a petition for a
writ of habeas corpus challenging his confinement pursuant to his civil commitment and was
granted a belated appeal, which was ultimately unsuccessful, and his remaining claims were
dismissed with prejudice. Petitioner was recommitted following an annual review in November
2014, and this Court dismissed petitioner’s appeal from that decision, holding the petition for
appeal was not timely filed. In February 2014, while civilly committed, petitioner was convicted
in the Circuit Court of Nottoway County of two misdemeanor counts of indecent exposure and
was sentenced to twenty-four months’ imprisonment. His subsequent appeals to the Court of
Appeals of .Virginia and to this Court were unsuccessful. In January 2016, petitioner Was
convicted in the Circuit Court of Nottoway County of indecent exposure, a felony third offense,
arid was sentenced to five years’ imprisoriment with four years suspended. On March 7, 2017,
the Court of Appeals of Virginia reversed petitioner’s felony indecent exposure conviction,
holding the circuit court erred in finding petitioner consented to waive his jury trial rights and to
proceed with a bench trial. The Commonwealth has not retried petitioner on that charge.
On November 6, 2015, the circuit court granted petitioner’s motion to appoint
counsel and continued his fourth annual review hearing until January 6, 2016. On the date of the
scheduled hearing, the court entered a consent order, signed by petitioner’s counsel, that deferred
the annual review hearing pursuant to Code § 37.2-919(B), which provides, in cases where an

